                      America the Beautiful


         FEDERAL LABOR RELATIONS AUTHORITY
                  OFFICE OF INSPECTOR GENERAL


                      40th SEMIANNUAL REPORT
                         TO THE CONGRESS




                          April 1, 2008
                             through
                       September 30, 2008

Date Issued: October 6, 2008
                           EXECUTIVE SUMMARY
This is the 40th Semi-Annual report issued by the Office of the Inspector General (OIG)
at the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to
section 5 of the Inspector General Act, summarizes the major activities and
accomplishments of the FLRA Inspector General for the period of April 1, 2008 to
September 30, 2008.

During this reporting period, the FLRA Inspector General contracted auditors conducted
the 2007 Financial Statement Audit. The FLRA Inspector General conducted and issued
an internal review of FLRA’s Administrative Programs, conducted an evaluation of
information technology and issued a 2008 Inspector General Federal Information
Security Act Evaluation. During this reporting period, the FLRA Inspector General
underwent an ECIE Audit Peer Review and attended the PCIE/ECIE Conference as well
as served on the PCIE/ECIE Human Resource Committee.

The FLRA Inspector General also conducted 5 investigations and responded to 11
hotline issues during this reporting period. The FLRA Inspector General participated in 4
Surveys and responded to several inquiries sent by the PCIE/ECIE, OPM and GSA.
During this timeline, both the Chairman and Executive Director who had micromanaged
during this administration left the FLRA. The FLRA remaining managers and new
managers began to address policy and procedures that had been ignored or improperly
handled by the former Chairman and Executive Director.

During this reporting period, the new Chief Financial Officer/Acting Chief Information
Officer and new Acting Executive Director focused on addressing many issues which
were not addressed by management from 2000 to 2008. The environment of the FLRA
and respect by management to the FLRA Inspector General and employees has
definitely occurred. Most of FLRA’s managers and employees are focused on now
rebuilding the FLRA to improve the mission and administrative programs which had
been destroyed by the former FLRA Chairman and Executive Director who are no
longer employed with the FLRA.




                                40th Semi Annual Report
                                      Page 2 of 34
                          LABOR RELATIONS AUTHORITY

The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. The FLRA is “three components in one,” fulfilling legal statutory
responsibilities through the Authority, the Office of General Counsel and the Federal
Service Impasses Panel. The FLRA has 7 regional offices and one satellite office. The
FLRA also provides staff support to two other organizations – the Foreign Service
Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President with the advice and consent of the Senate. One
Member is appointed by the President to serve as Chairman of the Authority and as
Chief Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies and guidance, the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of Policy, Project & Performance Management, and the Office of
Administrative Law Judges, the Office of Case Adjudication the Office of the Solicitor,
the Office of the Executive Director, and the Office of the Inspector General.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ’s) are appointed by the Authority to conduct due process hearings in accordance
with the Administrative Procedures Act and issue recommended decisions in cases
involving alleged unfair labor practices. ALJ’s also conduct hearings and issue
recommended decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. In the course of their duties, ALJ’s
conduct pre-hearing conferences, issue subpoenas, rule on motions and evidentiary
issues, and engage in settlement efforts. An ALJ decision may be affirmed, modified, or
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ
decision, the decision is adopted by the Authority and becomes final and binding upon
the parties.

                                 40th Semi Annual Report
                                       Page 3 of 34
Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of Chief Human Capital Officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval, are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chairman’s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.

Office of Case Adjudication: The Office of Case Adjudication was created in March
2007 to realign the Authority’s case control staff and professional case writer staff to
maximize the achievements of the Authority Decisional Component. The 3 FLRA
Member Offices still exist and retain a core staff. This change was implemented to
enable the Authority Decisional Component to consistently meet their goals and
improve the ability of the Authority to assign, track and follow-up on Arbitration,
Negotiability, Unfair Labor Practice and Representation cases that are submitted to the
Authority Decisional Component for resolution and disposition.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits, investigations, evaluations,
inspections, surveys and other oversight activities related to the FLRA programs and
operations. In addition, the Inspector General is authorized to create Inspector General
policies and review new FLRA instructions to promote economic, efficient, and effective
agency programs, which prevent fraud, waste, abuse and mismanagement. The
Inspector General is responsible for keeping the Chairman, FLRA and the Congress
fully informed of problems and deficiencies, as well as, the necessity for corrective
actions. Public Law 100-504 and the Inspector General Act, as amended, mandate the
requirements, objectivity and independence of Federal Agency Inspectors General. The
Office of Inspector General’s 2008 budget is $333,680.20 which includes salaries for the
Inspector General and Administrative Assistant but is not sufficient for the Inspector

                                40th Semi Annual Report
                                      Page 4 of 34
General to perform the requirements and undergo senior level training related to and
required for the Inspector General’s job.

Office of the General Counsel: The Office of the General Counsel (OGC) is a
component of the FLRA. The General Counsel, who is appointed by the President with
the advice and consent of the Senate for a 5-year term, manages all OGC employees.
The OGC includes seven regional offices located in Atlanta, Boston, Chicago, Dallas,
Denver, San Francisco, and Washington, DC and one remote duty location in Brea,
California. The OGC investigates all unfair labor practice charges filed either by an
employee, a labor union or a federal agency and prosecutes all unfair labor practice
complaints before the Authority. The OGC is also responsible for receiving and
processing representation petitions and providing education services to the parties. The
General Counsel reviews all appeals and establishes case-handling policies and
procedures for the OGC.

The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board, (the Board) was created by the Foreign Service Act of 1980 to administer the
Labor-Management Relations Program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chairman).
The Disputes Panel resolves bargaining impasses between Federal agencies and
Foreign Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.



                                40th Semi Annual Report
                                      Page 5 of 34
The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C.

FLRA MISSION STATEMENT

The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contributes to a more effective Government.

The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.

Under the Statute, the primary responsibilities of the FLRA include:

   •   Determining the appropriateness of units for labor organization representation;
   •   Adjudicating exceptions to arbitrator's awards;
   •   Resolving complaints of unfair labor practices; and
   •   Resolving impasses and issues relating to the duty to bargain.

OFFICE OF INSPECTOR GENERAL

The Federal Labor Relations Authority Inspector General:

   -   Conducts and supervises investigations, inspections, internal reviews, audits,
       surveys and evaluations of the programs and operations of the FLRA;

   -   Provides leadership and coordination, and recommends actions to management,
       which:

        1.   Promote economy, efficiency, and effectiveness in agency programs and
             operations;

        2.   Prevent and detect fraud, waste, abuse, and mismanagement of
             Government resources, and

        3.   Inform the Chairman and Congress regarding problems and deficiencies,
             and the progress of corrective actions.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Administrative Assistant. When required and improved by the
Chairman, FLRA, the FLRA Inspector General uses contracted auditors to perform
FLRA audits. The FLRA, Inspector General had submitted a request to the former
Chairman/Chief Financial Officer for an increase in operational funding in the FLRA
Office of Inspector General to conduct at least one audit in addition to the Financial

                                 40th Semi Annual Report
                                       Page 6 of 34
Statement Audit. No response was received from the now former Chairman. The FLRA
Inspector General will address this issue with the New Chairman when appointed.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership, with
an independent and objective assessment of the organization’s efficiency and
effectiveness. This is accomplished through proactive oversight activities of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.

The primary objectives of the Office of Inspector General are as follows:

   •   To evaluate the efficiency and effectiveness of FLRA programs and resource
       management and identify best practices, as well as causative factors, impeding
       the accomplishment of the FLRA mission;

   •   To assist the Chairman and FLRA management in carrying out their
       responsibilities by providing them with objectives and timely information on the
       conduct of FLRA operations, together with the Inspector General’s independent
       analysis, conclusions, and recommendations;

   •   To use evaluations, internal reviews, and more traditional assessment tools of
       audits, inspections, and investigations, to maximize oversight and strengthen
       system and process controls; and

   •   To support the Administration and Congress in maximizing Government integrity
       and efficiency and minimizing the occurrence of fraud, waste, abuse, and
       mismanagement.

AUDIT/INTERNAL REVIEW/ INVESTIGATION ACTIVITY

During this reporting period the FLRA Office of the Inspector General performed the
following audits and reviews in compliance with Government auditing standards:

2007 FLRA Financial Statements Audit

The 2008 Financial Statement audit affirmed that FLRA Management transferred its
financial responsibilities to the Department of Interior National Business Center in FY
2006 and much of FLRA’s financial responsibilities improved during FY 2008. This was

                                 40th Semi Annual Report
                                       Page 7 of 34
the first time during this administration that it did not take an excessive amount of time
for FLRA management to provide the necessary financial information for the 2008
Financial Statement auditors. In FY 2008, no material weaknesses were noted and the
audit focused on previous findings and recommendations of the 2004-2007 Financial
Statement Audits which were not addressed by FLRA Management. The 2008
Financial Statement Audit did affirm that several previous findings and
recommendations relating to previous Financial Statement audits were finally
addressed. The FLRA Inspector General and Financial Statement auditors agree that
FLRA’s decision to turn Financial Management over to the National Business Center
definitely improved FLRA’s financial management. Also, the experienced new Chief
Financial Officer is focusing on the Agency’s financial and information security issues
and interacting properly and professionally with the FLRA Inspector General.


Inspector General FISMA Evaluation

FLRA Inspector General Internal Review of FLRA Administrative                    Closed
Programs

During this reporting period, FLRA management began to focus on trying to improve the
negative FLRA environment which has been causing many long term employees to
retire or find other Federal jobs over the last several years. Financial programs, Human
Resource programs and information technology programs have all been contracted to
the Department of Interior National Business Center which will most likely improve
FLRA’s Federal Government administrative requirements as well as the environment.
FLRA Management recently hired a professional and experienced Chief Financial
Officer who is also acting as the Information Technology CIO to focus on improving
these deteriorated administrative programs

During this reporting period the FLRA Inspector General began an Internal Review of
FLRA Administrative Programs. Over the past year, FLRA management has focused
more properly on addressing administrative programs which required extensive
updating and addressing the President’s Management Agenda requirements even
though it was not an official requirement for this Agency. The FLRA Inspector General’s
internal review provided FLRA management with independent and objective issues that
should be addressed to improve the FLRA’s administrative environment even though
Financial Management, Human Resources and Information Technology have been
contracted to be handled by the Department of Interior National Business Center.


2008 Peer Review                                                               Closed

During this reporting period the ECIE U.S. International Trade Commission Office of
Inspector General conducted a 2008 Peer Review starting in March 2008 which was
completed in September 16, 2008. The Peer Review addressed the 2007 Financial
Statement Audit which was the only audit budgeted by the former Chairman for

                                 40th Semi Annual Report
                                       Page 8 of 34
Inspector General Audits. This Peer Review affirmed that the FLRA Inspector General
complied with Government auditing standards and quality controls promulgated by the
Comptroller General of the United States. The Peer Review also affirmed that the
FLRA Inspector General had a proper internal quality control system and was in
compliance with applicable auditing standards, policies, and procedures.

The Peer Review did find serious impairments which seriously impaired the
independence of the FLRA Inspector General (stated by the two previous ECIE reviews
and ignored by the former Chairman of the FLRA). These inherent limitations included
the lack of cooperation, control of the FLRA Inspector General’s budget, the denial of
audit financial requests, denial of access to data and personnel, failure to respond to IG
audit and other oversight findings and recommendations, denial of proper training
budgets, denial of independence to posting documents on the public website, resource
limitations and failure to issue the Inspector General’s semi annual reports to Congress.
These serious limitations have prevented the FLRA Inspector General from carrying out
some of the statutory responsibilities. Since both the appointed Chairman and
Executive Director left the FLRA in May and June, hopefully these concerns will improve
over the next year.


FLRA Inspector General Investigations and Hotlines

During this reporting period, the FLRA Inspector General conducted 5 Administrative
Investigation and handled 11 Hotline calls. The details of both the Investigations and
hotlines will be on the charts at the end of this report.

External Responses                                                          Closed

During this reporting period the FLRA Inspector General responded to Congress and
GAO regarding FLRA Inspector General’s Independence and Interaction with FLRA
management as well as Management’s response to Inspector General Findings and
Recommendations. The FLRA Inspector General also interacted with OMB and worked
with the Project of Government Oversight to create an Inspector General Survey for the
PCIE/ECIE community.

During this reporting period, the FLRA Inspector General also responded to Senator
Waxman’s request for information regarding management’s response to corrective
actions from 2000 to 2008. The FLRA Inspector General also responded to GAO’s
request to the FLRA Inspector General to address and comment on questions which will
be provided to all ECIE/PCIE Inspectors General for all Inspector General environment
responses.

FLRA Inspector General Surveys                                                Closed

During this reporting period the FLRA Inspector General was involved in 10 Surveys
which included:

                                 40th Semi Annual Report
                                       Page 9 of 34
          -   Government Administrative Office Questionnaire to Inspectors General of
              Designated Federal Entities

          -   Inspector General Survey for Investigations

          -   Office of Personal Management Survey

          -   Survey for Direct Hiring Authority

          -   Homeland Security Survey

          -   EPA Direct Hire Survey

          -   OPM FLRA Employee Survey

          -   GAO Inspector General Survey

          -   2nd POGO Survey

          -   FLRA Oversight Survey


FLRA Inspector General Audit Peer Review

An ECIE Audit Peer Review of the FLRA Office of Inspector General Audits was
conducted by the United States International Trade Commission Inspector General and
staff auditor and was issued to the FLRA Inspector General on September 16, 2008.
The FLRA Inspector General provided a copy to the Acting Executive Director of the
FLRA (There is currently no appointed Chairman or Executive Director in the FLRA.) A
copy was also provided to the Chairman and Vice Chairman of the PCIE and ECIE. A
recommendation to provide Congress, OPM and-GAO-in addition to the Chairman of
the PCIE and Vice Chairman of the ECIE was also sent.

The review conducted affirmed that the FLRA Inspector General complied with internal
quality controls, guidelines established by the PCIE/ECIE and provided assurance that
the applicable auditing standards, policies and procedures were met and properly
conducted. However, the auditors found a serious impairment to the independence of
the IG caused by lack of cooperation from FLRA former management including the
denial of access to data and personnel, failure to respond to audit and other oversight
findings and recommendations and the failure of the former Chairman to forward Semi
Annual Reports to Congress on time. Also, the former Executive Director did not
support the FLRA IG’s independence to post IG documents on the FLRA public website
as required by law. The former Chairman and Executive Director (who left the FLRA in
July and June of 2008) created serious impairments to the independence of the FLRA
Inspector General.

                                 40th Semi Annual Report
                                       Page 10 of 34
FLRA Inspector General Instructions and Oversight Reports                       Open

During this reporting period, the FLRA Inspector General again requested that
management place the FLRA Inspector General’s Inspector General instructions, which
were created in 2006 and still are not on the FLRA Inspector General Internet. The
FLRA Inspector General can not enter instructions, audit and internal review reports,
Strategic Plans and other required information on the FLRA internet. The new Acting
Chief Information Officer did address the security of the FLRA Inspector General’s
computer and is focusing on many problems with the FLRA’s information technology
system and will address the Inspector General independent access to the internet and
private ability to enter information on the FLRA Inspector General internet. Previous
l998 and l999 Inspector General instructions are still on the FLRA internet but not the
new ones. However all required Inspector General Information is sent by the FLRA
Inspector General to the IGNET and entered immediately.

During this reporting period the FLRA Inspector General updated the FLRA OIG
investigation manual and also participated in the PCIE/ECIE Assessment of need for IG
Digital Forensic Lab.


ADDITIONAL ACTIVITIES

Executive Counsel of Integrity and Efficiency (ECIE)

The FLRA Inspector General attends the ECIE monthly meetings on a regular basis to
ensure that the FLRA Inspector General is current and aware of requirements,
operations and issues related to ECIE Inspectors General. The FLRA Inspector
General represents the ECIE on the PCIE/ECIE Human Resource Committee. The
FLRA Inspector General attended the PCIE/ECIE Conference in Newport News,
Virginia.

Training

During this Reporting Period, the FLRA Inspector General attended many Government
Executive conferences which did not require financial expenditures for the FLRA
Inspector General. Ethics training was provided on line by the FLRA Ethics Officer.
FLRA also provided Security Training at the end of the 2008 fiscal year. The FLRA
Inspector General was only allocated $500.00 per year for training which still is
insufficient for Inspector General senior level training because it is used for the
PCIE/ECIE annual conference which is essential to attend. However, during this
reporting period, the former Chairman did approve the FLRA Inspector General’s
request for Investigation training. The other training attended by the FLRA Inspector
General at the Government Executive meetings included:


                                40th Semi Annual Report
                                      Page 11 of 34
Oversight Corrective Actions

On January 2, 2008, the FLRA Inspector General received the Chairman’s response to
175 OIG findings and recommendations from 1998 to the 2007. The FLRA Chairman
requested that most of them be closed because they were nearly ten years old. The
FLRA Inspector General reviewed the FLRA Chairman’s responses and all of the
recommendations to see if they were no longer required. 46 of 175 recommendations
have been closed. Some open recommendations need specific contact, designated
law; current explanations of what specific actions were done relating to Management’s
request for closure for actions taken to the Inspector General before they can be closed.
Those that required management response and are still open are included in the
attached chart. Those that are closed are so marked and will be eliminated from the
corrective action log after this report.

Security Issues

During this reporting period, the FLRA did not have any security issues.

Inspector General Corrective Actions

Starting in May 2008 the new Chief Financial Officer who was also the Acting Chief
Information Officer began to focus on addressing the FLRA’s Inspector General
oversight activities that are still open from 2000 to the current date. Completed
information has not yet been provided to the FLRA Inspector General.




                                40th Semi Annual Report
                                      Page 12 of 34
   Response to 1998 --2007 FLRA Inspector General Oversight Activities Recommendations:

    Report No.              Recommendation                        Target Completion                   Status
   Issued Date
NARA Evaluation   1/8(a) Develop a self-valuation           The IG received Mgt. response to   Open
of FLRA           records mgt. checklist and distribute.    IG findings and recommendations
Section I                                                   by e-mail Jan.2, 08.
                  (b) Conduct periodic evaluations                                             Open

                  (c) Ensure recommendations are                                               Open
                  implemented.




Section II        II/1: Ensure that the maintenance of      The IG received Mgt. response to   Open
                  records documenting agency actions,       IG findings and recommendations
                  policies and procedures are current       by e-mail Jan.2, 08.
                  and distributed to staff.
                  II/2(a) Review working case files
                  retention                                                                    Open
                      (b) Meet with office Directors to
                  develop retention schedules for all                                          Open
                  records not in current schedule and
                  get for changes to current schedule.
                      (c) Develop retention schedules for
                  new records and make changes to                                              Open
                  current schedules.
                      (d) Submit new schedule for
                  Archivist’s approval                                                         Open
                      (e) Include approved schedule in
                  updated instruction 1323.1.                                                  Open
                  II/3: Require offices to separate
                  temporary and permanent case files.                                          Open
                  II/4: Ensure that photographs that are
                  a part of a permanent case file                                              Open
                  conform to 36 CFR Section 1232.
                  II/5: Establish a Vital Records                                              Open
                  Program.
                  II/6: Identify vital FLRA records and
                  enact measures to protect and update                                         Open
                  them, and ensure their availability
                  during emergencies.
                  II/7: Consider the offsite                                                   Open
                  maintenance/storage of copies of vital
                  records.

Section III       III/1. Identify which FLRA records are    The IG received Mgt. response to   Open
                  not covered by records schedule or        IG findings and recommendations
                  the General Record Schedules.             by e-mail Jan.2, 08
                  III/2: Develop and submit to NARA                                            Open
                  proposed records schedules for
                  unscheduled records.
                  III/3: Formalize the creation                                                Open
                  maintenance/disposition of
                  administrative records to the same
                  extent as program records.
                  III/4: Offer records mgt. Guidance to     The IG received Mgt. response to   Open
                  staff on electronic Records Mgt. And      IG findings and recommendations
                  FOIA procedures (including E-FOIA         by e-mail Jan.2, 08
                  amendments).

                                             40th Semi Annual Report
                                                   Page 13 of 34
Mgt. Letter        1. Update all FLRA delegation of           The IG received Mgt. response to   Open
4/19/98            authority, memoranda of                    IG findings and recommendations
Instructions/MOU   understanding, and instructions to         by e-mail Jan.2, 08
Update             reflect current mission.


                   2. Distribute updated policy to all        The IG received Mgt. response to   Open
                   managers and make them available           IG findings and recommendations
                   to all employees in one central folder     by e-mail Jan.2, 08
                   on the FLRA website along with
                   updated index.




9/28/99 OPM        1. Establish an accountability system      The IG received Mgt. response to   Open
Review of FLRA     to assess mgt. utilization of human        IG findings and recommendations
Human              resources.                                 by e-mail Jan.2, 08
Resources
Program
                                                              The IG received Mgt. response to   Open
                   2. Study quality of performance            IG findings and recommendations
                   feedback and provide strategies for        by e-mail Jan.2, 08
                   ensuring sufficient quality
                   performance feedback is provided to
                   employees


Audit of the       1. Review all current personnel files      The IG received Mgt. response to   Open
FLRA FY 98         to ensure payroll, leave and benefits      IG findings and recommendations
Financial          information is correct and reconciles      by e-mail Jan.2, 08
Statements and     that which is maintained by Denver
Central Services   Payroll Operations Division and take
Fund (Report       appropriate action to reconcile any
No. 99-01-         overpayments or under payment
September          found. The results of this effort should
1999).             be specifically reported to the FLRA
                   Inspector General.


                   2. Review, update and revise as            The IG received Mgt. response to   Open
                   necessary, FLRA Regulations 2301.1         IG findings and recommendations
                   Financial Mgt. System to reflect           by e-mail Jan.2, 08
                   contemporary policy, including a
                   requirement for a documented yearly
                   review of financial mgt. statements by
                   the Executive Director and audits of
                   financial statements by independent
                   source on a yearly basis


Internal Review    1. Create centralized Administrative       The IG received Mgt. response to   Open
of FLRA External   Tracking System.                           IG findings and recommendations
Affairs May 2000                                              by e-mail Jan.2, 08
                   2. Develop/implement FLRA External                                            Open
                   Affairs Policy.




                                              40th Semi Annual Report
                                                    Page 14 of 34
                   3. Create Agency Policy Compliance       The IG received Mgt. response to   Open
                   with the Paperwork Reduction Act.        IG findings and recommendations
                                                            by e-mail Jan.2, 08.



FLRA               13. Define rules of behavior for each    The IG received Mgt. response to   Open
Information        system based on management’s             IG findings and recommendations
System Security    defined level of acceptable risk.        by e-mail Jan.2, 08.
Audit January
2001


Internal Review    5. FLRA Travel Manager should            The IG received Mgt. response to   Open
of FLRA’s Travel   request that National Travel website     IG findings and recommendations
Program 9/18/01    to accommodate FLRA’s travelers          by e-mail Jan.2, 08
                   need and ensure that all FLRA
                   employees are trained to use the
                   website.

Internal Review    2. Establish a MOA with an executive     The IG received Mgt. response to   Open
of FLRA Travel     Agency to administrative FLRA            IG findings and recommendations
Program            contract appeals.                        by e-mail Jan.2, 08
September 2001.



                   3. Brief FLRA management on basic        The IG received Mgt. response to   Open
                   federal procurement requirements.        IG findings and recommendations
                                                            by e-mail Jan.2, 08


Mgt. Letter Fair   1. Create Internal policy (include       The IG received Mgt. response to   Open
Act Compliance     competition plan) for contracting        IG findings and recommendations
June 4, 2002       commercial activities.                   by e-mail Jan.2, 08

                   2. Annually see mgt. input validate
                   inherently governmental and              The IG received Mgt. response to   Open
                   commercial activities.                   IG findings and recommendations
                                                            by e-mail Jan.2, 08.

                   3. Perform cost analysis on positions    The IG received Mgt. response to   Open
                   identified in the FY 2002 and future     IG findings and recommendations
                   Fair Act submission private sector as    by e-mail Jan.2, 08.
                   well as federal organizations before
                   contracting with federal agencies.

                   4. Include justifications retaining      The IG received Mgt. response to   Open
                   defined non-inherently government        IG findings and recommendations
                   positions in the FLRA.                   by e-mail Jan.2, 08.


Case Handling      3. Provide new Atlanta Regional          The IG received Mgt. response to   Open
                   Office employees with on site training   IG findings and recommendations
                   on OGC unfair labor practice charge      by e-mail Jan.2, 08.
                   and representation case processing
                   policies.


                   5. Obtain a qualified person to          The IG received Mgt. response to   Open
                   perform a Myers Briggs Analysis and      IG findings and recommendations
                   use this analysis for employees to       by e-mail Jan.2, 08.


                                              40th Semi Annual Report
                                                    Page 15 of 34
                  understand behavioral interactions,
                  perceptions and reactions.



Internal Review   6. FLRA should request two copies of       The IG received Mgt. response to   Open
of Debt           non-reproducible reports in order to       IG findings and recommendations
Collection        ensure support documents are               by e-mail Jan.2, 08.
November 02       retained. BFD should purse retaining
                  electronic versions of system-
                  generated reports.



                  7. FLRA should implement                   The IG received Mgt. response to   Open
                  procedures to ensure that both the         IG findings and recommendations
                  journal entries for the disposition of     by e-mail Jan.2, 08
                  fixed assets and correction of
                  expenditures erroneously capitalized
                  as fixed assets are performed in a
                  timely manner to ensure proper
                  statement of the general ledger at the
                  fiscal year end.

                  10. FLRA should identify furniture on      The IG received Mgt. response to   Open
                  a replacement cycle with the Agency’s      IG findings and recommendations
                  Central Services Fund to provide a         by e-mail Jan.2, 08
                  systematic method for budgeting for
                  and replacing furniture.


                  11. BFD should implement the use of        The IG received Mgt. response to   Open
                  electronic spreadsheets as a standard      IG findings and recommendations
                  for accounting documentation to allow      by e-mail Jan.2, 08
                  for easy documentation of explanatory
                  notes and imputing changes.


                  12. FLRA should include an amount          The IG received Mgt. response to   Open
                  in the accrued FECA liability for          IG findings and recommendations
                  estimated fourth quarter FECA claims       by e-mail Jan.2, 08
                  costs.


                  13. FLRA should record liability for       The IG received Mgt. response to   Open
                  future workers’ compensation.              IG findings and recommendations
                                                             by e-mail Jan.2, 08

                  15. The FLRA should enhance the            The IG received Mgt. response to   Open
                  Accounting Manual with the detail of       IG findings and recommendations
                  specific procedures for the                by e-mail Jan.2, 08
                  department staff


                  16. FLRA should develop written            The IG received Mgt. response to   Open
                  budget information and execution           IG findings and recommendations
                  policy that outlines the process; states   by e-mail Jan.2, 08
                  procedures utilized and clarify FLRA
                  approaches and methodology.




                                             40th Semi Annual Report
                                                   Page 16 of 34
             17. Significant changes or direction      The IG received Mgt. response to   Open
             from the initial budget submission        IG findings and recommendations
             should be communicated to cost            by e-mail Jan.2, 08
             center managers in a timely manner.

             18. FLRA components and                   The IG received Mgt. response to   Open
             subcomponents should develop data         IG findings and recommendations
             to support effective and justifiable      by e-mail Jan.2, 08
             resource allocations.

             19. The FLRA should consider              The IG received Mgt. response to   Open
             separating the information Technology     IG findings and recommendations
             budget from the Agency Central            by e-mail Jan.2, 08.
             Services Fund and place it under the
             responsibility of the Chief information
             Officer.


             1. FLRA Authority Members/Chief           The IG received Mgt. response to   Open
Executive    Counsels should develop standard          IG findings and recommendations
Summary of   policy and timeliness for case            by e-mail Jan.2, 08.
FLRA Case    processing, including the average
Processing   length of time the case should be at
             various stages of its process.

             4. FLRA Authority Member should
             create a standard case processing         The IG received Mgt. response to   Open
             policy (or manual) to ensure that         IG findings and recommendations
             current and new employees perform         by e-mail Jan.2, 08.
             their duties appropriately.

             5. The Screening Committee should         The IG received Mgt. response to   Open
             be required to provide more merit         IG findings and recommendations
             review and legal issue information on     by e-mail Jan.2, 08.
             the cases they review.


             7. Input from the Members at the time     The IG received Mgt. response to   Open
             of case assignment and more               IG findings and recommendations
             interaction among the Members and         by e-mail Jan.2, 08.
             their senior staff would eliminate
             repetition.


             8. The Authority should consolidate       The IG received Mgt. response to
             the issuance of the Issue                 IG findings and recommendations    Open
             Memorandum for noncomplex cases.          by e-mail Jan.2, 08.


             9. The Director, Case Control Office,
             Members’ Senior Chief Counsels            The IG received Mgt. response to   Open
             should interact again with the Chief      IG findings and recommendations
             Information Officer and Director,         by e-mail Jan.2, 08.
             Information Resources Management
             to improve the current case tracking
             system to support Authority Member
             Office case tracking process.




                                       40th Semi Annual Report
                                             Page 17 of 34
Executive      10. Add an additional FTE to the         The IG received Mgt. response to   Open
Summary of     Collaborative Alternative Dispute        IG findings and recommendations
FLRA Case      Resolution Office to enable the          by e-mail Jan.2, 08.
Processing     Authority process of resolution to
Cont.          expand.

               11. The Authority should plan a          The IG received Mgt. response to   Open
               training conference for Federal          IG findings and recommendations
               agencies.                                by e-mail Jan.2, 08.


Follow-up on   2. Establish an integrated senior        The IG received Mgt. response to   Open
FY/2000 FLRA   leadership/mgt. team to address          IG findings and recommendations
IG Review of   human capital issues and provide         by e-mail Jan.2, 08.
FLRA Human     justified recommendations to the
Capital        Chairman.


               3. Reinstate monthly mgt. meetings       The IG received Mgt. response to   Open
               during which current mgt. issues are     IG findings and recommendations
               discussed and each manager is            by e-mail Jan.2, 08.
               required to brief all managers on
               major activities.


               4. FLRA components should be             The IG received Mgt. response to   Open
               briefed on behavior and engage in        IG findings and recommendations
               personality testing. (Myers Briggs       by e-mail Jan.2, 08.
               Type indicator and/or Strong Interest
               Inventory). This could be done in –
               house or at an offsite meeting.

               5. The Agency needs to compile           The IG received Mgt. response to   Open
Follow-up on   more human capital statistics to make    IG findings and recommendations
FY/2000 FLRA   proper human capital decisions. The      by e-mail Jan.2, 08.
IG Review of   following data should be considered to
FLRA Human     be collected by HRD:
Capital        - Workforce data,
               - Skills inventory,
               - Dates and dispersal of
               performance appraisal,
               - Yearly vacancies and time
               period required to fill them.
               - Yearly data on number and
               cost of bonuses, awards and
               other incentives,
               - Yearly statistics on
               grievances,
               - EEO complaints and costs in
               dollars,
               - Costs of promotions and within
               grade increases, and amount per
               employee spent for training and its
               percentage of the operating budget.

               6. Update the FLRA Strategic Plan        The IG received Mgt. response to   Open
               and have management revise               IG findings and recommendations
               component action plans and               by e-mail Jan.2, 08.
               employee work and performance
               plans with focus on agency-wide
               results.



                                          40th Semi Annual Report
                                                Page 18 of 34
                  8. FLRA/HRD should perform an              The IG received Mgt. response to   Open
                  Agency-wide employee skills                IG findings and recommendations
                  inventory. It definitely would provide a   by e-mail Jan.2, 08.
                  baseline for skill needs, employee
                  training and future hiring.


Internal Review   1. Add contemporary safety, health,        The IG received Mgt. response to   Open
of FLRA’s         and security information including the     IG findings and recommendations
Occupational      Emergency Plan and a current list of       by e-mail Jan.2, 08.
Safety and        FLRA policy to the website as well as
Health August     the Orientation Package given to new
2003              employees.

                  2. Increase Agency-wide training for       The IG received Mgt. response to   Open
                  FLRA safety and health programs.           IG findings and recommendations
                  Ensure that all supervisors are            by e-mail Jan.2, 08.
                  knowledge, aware of OSHA
                  requirements and provide
                  contemporary information to their
                  staffs. Include volunteer training to
                  CPR and increase safety evacuation
                  information to include maps of areas
                  to ensure employee safety.

                  3. FLRA/HRD should ensure that all         The IG received Mgt. response to   Open
                  OSHA statistics and records be             IG findings and recommendations
                  maintained so that the FLRA is in          by e-mail Jan.2, 08.
                  compliance with the OSHA
                  requirements.


                  4. FLRA/HRD should expand its              The IG received Mgt. response to   Open
                  definition of sensitive positions to, at   IG findings and recommendations
                  least, include Security Officers,          by e-mail Jan.2, 08.
                  Computer information Officers and
                  both senior and line managers and
                  comply within its Drug Free
                  Workplace Plan by randomly testing
                  at least one person per year.


                  5. The FLRA Exe. Dir. and Admin.           The IG received Mgt. response to   Open
                  Ser. Div. Should review the                IG findings and recommendations
                  Interagency Agreements with the            by e-mail Jan.2, 08.
                  Dept. of HHS and ensure that all
                  stated provisions are current and
                  addressed.



                  6. The FLRA Safety Program                 The IG received Mgt. response to   Open
                  Manager should ensure that all FLRA        IG findings and recommendations
                  subcomponents maintain                     by e-mail Jan.2, 08.
                  standardized sufficient and accessible
                  safety/protective equipment.


                  7. FLRA management should                  The IG received Mgt. response to   Open
                  prioritize the development of an FLRA      IG findings and recommendations
                  Continuity of Operations                   by e-mail Jan.2, 08.
                  (Contingency) Plan.


                                               40th Semi Annual Report
                                                     Page 19 of 34
                  8. Annual FLRA facility                   The IG received Mgt. response to
                  (Headquarters and Regional Offices)       IG findings and recommendations    Open
                  safety checks should be performed by      by e-mail Jan.2, 08.
                  the building Security Officer or FLRA
                  Security Officer, and
                  maintained/documented and followed
                  up by ASD’s Security Officer.


Internal Review   1. Because of the significant amount      The IG received Mgt. response to   Open
of FLRA’s         of travel by some agency component        IG findings and recommendations
Government        and subcomponent employees,               by e-mail Jan.2, 08.
Vehicles August   appropriate agency internal travel
2003              policy and statistics need to be
                  defined and maintained by all three
                  components of the Agency to properly
                  assess travel costs and budget travel
                  allocations.


                  2. FLRA Budget and Finance Division       The IG received Mgt. response to   Open
                  Dir. should semiannually monitor          IG findings and recommendations
                  travel transportation mileage logs and    by e-mail Jan.2, 08.
                  related costs, travel safety and
                  security incidents and other related
                  expenditures cost and provide internal
                  semi-annually reports to the
                  Chairman, FLRA, Counsel, Chairman
                  of FSIP, and Dir. of Admin. Law
                  Judges.


                  3. Director of Administrative Service     The IG received Mgt. response to   Open (3(a)(b))
                  Division should:                          IG findings and recommendations
                                                            by e-mail Jan.2, 08.
                  (a) Work with building owners and
                  maintenance personnel to ensure that
                  parking garage exterior doors
                  remained locked and secured.
                  (b) .Install door locks on all interior
                  doors.


Office of the     1. The FLRA should comply with            The IG received Mgt. response to   Open
General Counsel   Public Law 106346 and create policy       IG findings and recommendations
Internal Review   for employees who are or will             by e-mail Jan.2, 08.
of Remote Duty    volunteer to work full-time at home
Locations March   prior to making a decision to eliminate
2004              their remote duty stations.


Contracting       1. FLRA mgt. should focus on                                                 Open
Report August     creating and/or updating policy for
2004              their procurement operations and
                  providing this policy to contracting
                  employees to that the subject             The IG received Mgt. response to
                  employees are properly informed of        IG findings and recommendations
                  changes. Contract file information        by e-mail Jan.2, 08.
                  should be standardized and submitted
                  proposals should contain documented
                  evaluations. Task order written by


                                             40th Semi Annual Report
                                                   Page 20 of 34
                   FLRA managers should include
                   evaluation criteria by which
                   contractors will be evaluated.


                   3. FLRA Mgt. should focus more on           The IG received Mgt. response to   Open
                   human capital and customer orient           IG findings and recommendations
                   relationships. Also FLRA                    by e-mail Jan.2, 08.
                   management should be aware of and
                   support appropriate alternative
                   dispute resolution for claims as they
                   do for unfair labor practice charges
                   and arbitration cases, which provide
                   greater satisfaction to the filing party,
                   innovative methods of resolving
                   disputes and greater efficiency in
                   achieving settlements.

                   4. FLRA mgt. should ensure that             The IG received Mgt. response to   Open
                   senior appointed managers have              IG findings and recommendations
                   knowledge and/or are provided with          by e-mail Jan.2, 08.
                   necessary training in the program they
                   are responsible for managing.


FY 2004 Audit of   1(2) FLRA CIO should:                       The IG received Mgt. response to   Open
FLRA Security                                                  IG findings and recommendations
Programs           (a) Fully develop disaster recovery, IT     by e-mail Jan.2, 08.
                   contingency or operations plan:

                   (b) Provide training to enable
                   personnel to effectively implement all
                   plans and require periodic training;
                   and,

                   (c) After each plan is implemented,
                   conduct and document testing to
                   ensure that each plan is responsive,
                   and periodically reevaluate plans and
                   keep plans current.

                   3(5). FLRA should ensure that a             The IG received Mgt. response to   Open
                   management official authorizes in           IG findings and recommendations
                   writing the use of each general             by e-mail Jan.2, 08.
                   support system based on an
                   acceptance of risks identified with the
                   system certification process as
                   described by NIST.

                   4(6) FLRA should ensure that staff          The IG received Mgt. response to   Open
                   members adhere to documented                IG findings and recommendations
                   policies and procedures for                 by e-mail Jan.2, 08.
                   performing backups of network file
                   and mail servers.


                   (6)8. FLRA CIO should develop a             The IG received Mgt. response to   Open
                   complete Security Program Plan,             IG findings and recommendations
                   arrange for appropriate personnel to        by e-mail Jan.2, 08.
                   review it, revise the plan accordingly
                   and obtain approval cognizant
                   executive management.


                                                40th Semi Annual Report
                                                      Page 21 of 34
(7)9. FLRA CIO should develop,              The IG received Mgt. response to   Open
document and implement an incident          IG findings and recommendations
response plan consistent with NIST          by e-mail Jan.2, 08.
and OMB criteria.


8(10). FLRA should:                         The IG received Mgt. response to   Open
                                            IG findings and recommendations
(a) Take immediate action to ensure         by e-mail Jan.2, 08.
timely development and
implementation of policies and
procedures necessary to establish
and support FLRA’s information
security program, and;


(b) Develop and implement policies          The IG received Mgt. response to   Open
and procedures to track evaluate, and       IG findings and recommendations
monitor FLRA’s information and              by e-mail Jan.2, 08.
information systems security program
in accordance with OMB Circular A-
130, Appendix III; and

(c) Ensure proper and timely                                                   Open
reporting to OMB and Congress.



9(11). FLRA CIO should:                     The IG received Mgt. response to   Open
                                            IG findings and recommendations
(a) Develop policies and procedures         by e-mail Jan.2, 08.
requiring that patches be properly
tested in a test environment before
being placed into production.
(b) Develop a test lab to adequately
test patches; and                                                              Open
(c) Provide training to individuals to
ensure that multiple personnel can
perform critical functions and activities
can be performed by multiple
personnel.

10(12). FLRA CIO should:                    The IG received Mgt. response to   Open
                                            IG findings and recommendations
(a) Develop and implement a formal          by e-mail Jan.2, 08.
SDLC methodology based on NIST
guidance and ensure the policy
addresses the following elements:
- Sensitivity of data to be processed
in the system,

- Resources required for adequately
securing the system,

- Input form the equivalent of an
Investment Review Board,

- Authorization for software
modification documentation and
maintenance,


                            40th Semi Annual Report
                                  Page 22 of 34
                  - Budget request to include security
                  resources for the system,

                  - Security controls consistent with
                  and integral to senior management’s
                  standards, and

                  - Security requirements to be
                  included in solicitation documentation.
                  (b) Develop and implement a formal
                  change control policy outlining the
                  procedures needed to ensure that
                  system configuration changes are
                  properly documented, authorized,
                  approved, and tested before being
                  moved into production or
                  implemented.

                  11(13) FLRA Mgt. should:                  The IG received Mgt. response to   Open
                  - Suspend access or implement             IG findings and recommendations
                  adequate procedures to mitigate risks     by e-mail Jan.2, 08.
                  associated with CIO’s access
                  privileges to the network domain
                  servers and local account passwords
                  and follow through with the Windows
                  2000 migration and rollout initiatives
                  to ensure that current passwords that
                  have been compromised due to the
                  departure of the network manager do
                  not continue to present the Agency
                  with a major security risks.

                  12(14) FLRA CIO should:                   The IG received Mgt. response to   Open
                  (a) Develop policies and procedures       IG findings and recommendations
                  requiring periodic review of user         by e-mail Jan.2, 08.
                  access controlled, and;

                  (b) Analyze generic accounts
                  currently active on the network
                  operating system to ensure that they
                  are appropriate and that account
                  access are controlled and monitored.


                  14(16) FLRA should obtain the proper      The IG received Mgt. response to   Open
                  testing material and scan all FLRA        IG findings and recommendations
                  laptops/computers throughout the          by e-mail Jan.2, 08.
                  Agency to see if they contain improper
                  websites.



2005 Financial    1. Executive Mgt. should start the        The IG received Mgt. response to   Open
Statement April   agency towards FISMA compliance by        IG findings and recommendations
14, 2006          providing support for correcting the      by e-mail Jan.2, 08.
                  out-of-compliance situation. This
                  support should consist of memoranda,
                  policy and documented directions, but
                  also of financial and budgetary
                  resource allocation for the goods,
                  services, and personnel needs of the


                                             40th Semi Annual Report
                                                   Page 23 of 34
agency to correct the situation. This
support, along with the undertaking of
corrective actions by the Chief
information Officers and other FLRA
Staff, should be focused on
implementing the provided to the
FLRA from the fiscal year 2004
FISMA Audit Report.


2. Executive management should            The IG received Mgt. response to   Open
establish who is to perform Chief         IG findings and recommendations
Financial Officer duties and              by e-mail Jan.2, 08.
responsibilities for the agency. This
individual should have the appropriate
knowledge and skills needed for
fulfilling all the necessary duties and
responsibilities.


As an interim measure, other FLRA         The IG received Mgt. response to   Open
employees should be given the             IG findings and recommendations
appropriate training and guidance to      by e-mail Jan.2, 08.
establish adequate support for the
continued functions. This would
ensure that is a sufficient “backup
knowledge base” in other employees
in the event of a loss of a single
critical employee.

7. Mgt should address cash                The IG received Mgt. response to   Open
disbursement procedures, accounts         IG findings and recommendations
payable procedures and internal           by e-mail Jan.2, 08.
controls in its development of an
improved system of fiscal and
accounting management. The
process of accounts payable should
be core function that is contained
within the accounting system.


8. The Executive Dir. should examine      No responded to by                 Open
the procurement process between the       Management.
Divisions of Budget and Finance and
Administrative Services and ensure
the proper policies and procedures
are in place to provide that FLRA
obligations are recorded into the
agency accounting records in an
accurate and timely manner. In
addition, the Executive Director
should ensure that the policies and
procedures include adequate internal
control and monitoring.

9. Information needed for each            No responded to by                 Open
quarter closed should include all         Management.
necessary updated information for fair
statement of the financial position of
the FLRA.




                           40th Semi Annual Report
                                 Page 24 of 34
                  11. The process of updating the          The IG received Mgt. response to   Open
                  liabilities of accrued FECA and Future   IG findings and recommendations
                  Workers Compensation should be           by e-mail Jan.2, 08.
                  conducted quarterly in time for the
                  fiscal quarter accounting closed. This
                  updating should ensure fair statement
                  of the accrual by obtaining accurate
                  and reliable data needed to determine
                  the accrual.

                  12. Formal collection procedures         The IG received Mgt. response to   Open (12)(a)(b)(c)(d)(e)
                  should be establish that included:       IG findings and recommendations
                  (a) The formal periodic review of the    by e-mail Jan.2, 08.
                  account receivable aged trial balance;
                  (b) The implementation of procedures
                  for contacting delinquent accounts for
                  payment, such as sending letters;
                  (c) The formal periodic review of the
                  account receivable aged trial balance;
                  (d) A quarterly assessment
                  concerning the collectibles of the
                  receivables, and;
                  (e) The determination of allowance for
                  doubtful accounts.

                  13. The FLRA should ensure that the      The IG received Mgt. response to   Open
                  PAR is delivered by the regulatory       IG findings and recommendations
                  due date.                                by e-mail Jan.2, 08.


                  16. FLRA should address whether          The IG received Mgt. response to
                  alternative summary level information    IG findings and recommendations    Open
                  can be posted to the general ledger      by e-mail Jan.2, 08.
                  for the payroll interface. With
                  summary information by department,
                  the general ledger would be greatly
                  improved as a monitoring and
                  analysis tool for management.

2006 Financial    1. The FLRA Chairman or designated       The IG received Mgt. response to   Open (1(a)(b)(c)(d)(e)
Statement Audit   management official oversee audit        IG findings and recommendations
April 14, 06      follow-up including resolution and       by e-mail Jan.2, 08.

                  corrective actions ensuring that
                  (a) high priority has been assigned to
                  the resolution of audit and to
                  corrective action;
                  (b) systems of audit follow-up,
                  resolution and corrective action are
                  documented and in place.
                  (c) timely responses are made to all
                  audit reports.                           The IG received Mgt. response to
                  (d) disagreements are resolved, and;     IG findings and recommendations
                  (e) corrective actions are actually      by e-mail Jan.2, 08.
                  taken.




                                            40th Semi Annual Report
                                                  Page 25 of 34
                  3. Mgt and its employees establish        The IG received Mgt. response to   Open
                  and maintain an environment               IG findings and recommendations
                  throughout the organization that sets     by e-mail Jan.2, 08.
                  a positive and supportive attitude
                  toward internal controls and
                  conscientious management.


                  4. Management ensure that FISMA is        The IG received Mgt. response to   Open
                  complied with and that each year an       IG findings and recommendations
                  independent evaluation of information     by e-mail Jan.2, 08.
                  security program and practices of
                  FLRA is done to determine the
                  effectiveness of such programs and
                  practices with the deficiencies report
                  with the deficiencies reported under
                  those evaluations being properly
                  addressed and resolved.


                  5. Mgt. ensure that OMB Circular No.      The IG received Mgt. response to   Open
                  A-136, “Financial Reporting               IG findings and recommendations
                  Requirements is adhered to by the         by e-mail Jan.2, 08.
                  agency in all respects.


                  6. Mgt. has failed to respond to          The IG received Mgt. response to   Open
                  weaknesses in control environments        IG findings and recommendations
                  of previous financial statement audits    by e-mail Jan.2, 08.
                  and extensive amount of FLRA
                  Inspector General findings and
                  recommendations stated to
                  independent and objective oversight
                  activities. Mgt. needs to evaluate and
                  audit, investigation and oversight
                  report findings and recommendations
                  and provide responses and resolution
                  to all issues addressed in these
                  reports.

                  7. Mgt. must ensure timely recording      The IG received Mgt. response to   Open
                  of obligations onto the general ledger.   IG findings and recommendations
                                                            by e-mail Jan.2, 08.



                  8. Mgt. should establish independent      The IG received Mgt. response to   Open
                  monitoring of Accounts receivable to      IG findings and recommendations
                  ensure proper collection and/or           by e-mail Jan.2, 08.
                  resolutions.

Internal Review   3. Mgt. must issue PAR reports to         The IG received Mgt. response to   Open
of FLRA           Financial Statement auditors and          IG findings and recommendations
Administrative    must be completed in order to render      by e-mail Jan.2, 08.
Policy February   an audit opinion.
27, 2007

                  5. Mgt. has failed to follow-up and       The IG received Mgt. response to   Open
                  correct previously identified             IG findings and recommendations
                  weaknesses in internal controls and       by e-mail Jan.2, 08.
                  needs to be establish adequate
                  internal controls over general ledger


                                             40th Semi Annual Report
                                                   Page 26 of 34
                  reconciliations and supporting
                  documentation for general ledger
                  balances.

                  1(a) The FLRA Executive Director          The IG received Mgt. response to   Open
                  should immediately create a new           IG findings and recommendations
                  instruction for creating FLRA             by e-mail Jan.2, 08.
                  administrative instructions.
                  (b) The FLRA Executive Director
                  should immediately review the
                  cancelled policies and have
                  necessary replacement policies
                  issued as quickly as possible.
                  (c) The FLRA Executive Director
                  should address the review, update,
                  and/or revision of all FLRA
                  administrative instructions issued over
                  5-7 years ago, especially those
                  related to Human Resources, Security
                  Contracting, Procurement and
                  Financial Statement/Budgeting and
                  Accounting.


                  2. The FLRA Executive Director            The IG received Mgt. response to   Open
                  should immediately review all current     IG findings and recommendations
                  instructions without Executive            by e-mail Jan.2, 08
                  Directors signature and sign or attach
                  a signature to all instructions
                  implemented during the last 7 years
                  that have not been removed.


                  3. The FLRA Executive Director            The IG received Mgt. response to   Open
                  should review the 6 listed instructions   IG findings and recommendations
                  that are on the FLRA website and          by e-mail Jan.2, 08
                  cancellations list. If they are
                  acceptable as current policy, remove
                  them from cancellations list. If they
                  should be cancelled, remove them
                  from the FLRA instruction website.

Internal Review   1. FLRA Strategic Plan focuses on         These findings were provided on    Open
of FLRA           mission requirements. Mgt should          8-14-08 to the Acting Director
Administrative    include in FLRA’s Strategic Plan,         Catherine Emerson who
Programs          administrative programs such as           requested that the findings and
2008              Budget and Performance Integration,       recommendations be held until
                  Competitive Sourcing, Electronic          the new Chairman of the FLRA is
                  Government, Human Capital and             appointed.
                  Financial Performance, Contracting,
                  Emergency Relief, Medical Insurance
                  and Labor Management.

                  2. Management should address the                                             Open
                  following issues relating to
                  Administrative Programs to support
                  improvement, create proper internal
                  controls and eliminate:

                  - What is the purpose of the
                  Administrative Programs;



                                             40th Semi Annual Report
                                                   Page 27 of 34
- How are we set-up to achieve this
purposes;
- What we plan to do with the
Administrative Program in the future;
- What is the quality and results
expected in our plan;
- What is the quality and results
expected in our plan;
- What is defined as success of
improvement, and;
- How accountable do we consider
our achievements.

3. Management should create an IRM
strategic plan to include what needs to             Open
be and will be addressed over the
next few years and it should contain
E-Government and FISMA
requirements. As a result of this 2007
FISMA evaluation and Management
Survey, the FLRA Inspector General
recommends that the following issues
be addressed during FY 2008. They
have not yet been responded to.

4. A Feedback mechanism needs to
be established so that FLRA                         Open
employees can provide their computer
information technology and security
concerns directly to information
Resource Management and receive
timely responses to their concerns
personally.

5. FLRA should address compliance                   Open
with the Government Paperwork
Elimination Act so that FLRA’s
document management infrastructure
would support electronic filing of
charges and secure recommendation.

6. FLRA should focus on FISMA,
NIST and OMB requirements and                       Open
support the FLRA Inspector Generals
request to have an independent and
objective audit focused on information
technology and security issues.

7. All FLRA line managers should be
constantly involved with information                Open
Resource Management Division to
address their computer system
issues. Information Resource
Management Division employees
should have the authority to respond
to FLRA managers and employees.




                          40th Semi Annual Report
                                Page 28 of 34
8. TO enable work for FLRA
management and employees during                     Open
travel by airplanes and/or taxies,
FLRA should consider providing
wireless internets and dial-up
accesses to laptops taken on travel

9. A security Officer should be
appointed/hired by the FLRA as soon                 Open
as possible.

10. FLRA management needs to
provide more clarity about what                     Open
constitutes performance management
and involve employees in defining
successful performance.

11. SES and GS performance plans
need to be created and implemented                  Open
for all FLRA employees.

12. The current FLRA Acting
Executive Director should discuss with              Open
FLRA employees to see if they want
the FLRA Union Authority to become
active again and interact with the
Union President to re-establish the
Union.

13. FLRA should hire a Human
Resource Office who can interact with               Open
FLRA employees and NBC on a daily
basis.

14. The FLRA Strategic Plan needs
to be updated to include                            Open
administrative programs as well as
mission related program.

15. FLRA instructions and policies
that are more than 7 years old should               Open
be updated and implemented as soon
as possible

16. FLRA Managers should be
appointed to review applications for                Open
positions within their office/component
and provide their evaluations to the
Acting Executive Director, National
Business Center and additional staff
members.

17. FLRA Managers should focus on                   Open
their annual financial budgets and
ensure that their money is requested
and spent properly to address their
mission and administrative needs.

18. The Administrative Services                     Open
Division should focus on meeting
NARA records management
requirements and update FLRA’s


                          40th Semi Annual Report
                                Page 29 of 34
records management instruction to
ensure that FLRA records are
properly maintained.

19. Current FLRA Chief Financial
Officer has turned FLRA contracting                Open
over to National Business Center and
FLRA Financial Instructions need to
be issues.

20. The FLRA Local Union needs to                  Open
updated and discuss issues with the
FLRA Acting Director and reconstruct
the FLRA Union so it represents and
properly handles its employee
members.




                         40th Semi Annual Report
                               Page 30 of 34
                                                   TABLE I

            INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                      NUMBER OF REPORTS    DOLLAR VALUE
A. For which no management decision has been
made by the commencement of the reporting                   No Questioned Costs
period.
B. Which were issued during the reporting                 2008 Financial Statement
period?                                                            Audit
                                                            Not completed as of
                                                            September 30, 2008

C. For which a management decision was made             There is no Chairman in the
during the reporting period.                               FLRA as of this date
          (i) Dollar value of disallowed costs.

         (ii) Dollar value of costs not disallowed.                    .

D. For which no management decision has been
                                                            No Questioned Costs
made by the end of the reporting period.
                                                   TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
PUT TO BETTER USE
                                 NUMBER OF REPORTS    DOLLAR VALUE
A. For which no management decision has                Inspector General
been made by the commencement of the                   recommendation to conduct
reporting period.                                      an independent contracted
                                                       technical information security
                                                                                         $85,000.00
                                                       technology audit for FISMA
                                                       and significant IRM
                                                       deficiencies. Not approved
                                                       so far
                                                      2008 Financial Statement Audit
B. Which were completed during the reporting
                                                            not yet completed.
period?
C. For which a management decision was                Responses not provided
made during the reporting period.                      During this reporting period.
        (i) Dollar value of recommendations
                                                                   None
        that were agreed to by management.
        (ii) Dollar value of costs that were not       No response to IG request for
        agreed to by management.                          funds for 2008 Security       $85,000. 00
                                                        Technology Audit provided.
                                                            2005-2007 Financial
D. For which no management decision has                       Statement Audit
been made by the end of the reporting period.           Findings/Recommendations




                                       40th Semi Annual Report
                                             Page 31 of 34
                      FEDERAL LABOR RELATIONS AUTHORITY
                            Office of the Inspector General
                            Oversight Activities Summary
                           October 1, 2007 –March 31, 2008

SUBJECT                                                                    STATUS

Administrative Investigations                                                   5
                                                                             Closed
2008-I- 01- thru- 2008-I-04

2008-I -05                                                                  In process



Inspector General Hotline Calls: During this reporting period IG handled
11 Hotline Call                                                              Closed

2008-H-01 thru 2008-H-11


                     FEDERAL LABOR RELATIONS AUTHORITY
                           Office of the Inspector General
                        CORRECTIVE ACTION SUMMARY
                         October 1, 2007 – March 31, 2008
New Corrective Actions                                                         20

Open Corrective Actions Carried Over                                           133

Total Actions Closed This Period                                               46

Total to be Carried Over                                                       153




                                40th Semi Annual Report
                                      Page 32 of 34
Definitions

Actions

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter

This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                                40th Semi Annual Report
                                      Page 33 of 34
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                          TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                     HOTLINE

          1-800-331-3572 (24 hr. service)

                   202-218-7744

                     or write to

                        FLRA

            Office of Inspector General

                1400 K Street, NW

                     Suite 250

             Washington, D.C. 20424




                 40th Semi Annual Report
                       Page 34 of 34
